Review of TVA’s Continuity of
Operations Plan

           2006-507I
          June 1, 2006
Objective, Scope, & Methodology

    Objective:
    To determine whether TVA’s Continuity of Operations Plan (COOP) (1) complies
    with laws, regulations, and/or Executive Orders and (2) was adequately
    implemented and assessed for effectiveness.


    Scope:
    TVA’s overall COOP plan as compared to the requirements of a viable COOP
    plan as described by Federal Preparedness Circular (FPC) 65. The specific
    provisions in Presidential Decision Directive (PDD) 67 remains classified.




                                                                                 2
Objective, Scope, & Methodology (cont’d)

    Methodology:
    To assess TVA’s COOP plan, we:
       Reviewed PDD 67 and FPC 65 to determine provisions required by law.
       Reviewed TVA’s draft COOP plan as of June 2002 to determine if
        requirements of FPC 65 have been met.
       Interviewed TVA management personnel to assess compliance with
        requirements and assess understanding and communication of the TVA
        COOP plan.
       Reviewed GAO reports and other outside information to identify best
        practice provisions/elements of a COOP plan.


    This inspection was conducted in accordance with the “Quality Standards for Inspections.”




                                                                                                3
Background

      Presidential Decision Directive (PDD) 67 issued October 1998
       relates to Continuity of Operations Planning. While the text of
       PDD 67 remains classified and there is no White House Factsheet
       summarizing its provisions, the website for the Federation of
       American Scientists states PDD 67 contains the following:
        – Federal agencies are required to develop Continuity of Operations Plans
          for Essential Operations.
        – Federal Preparedness Circular 65, issued by the Federal Emergency
          Management Agency (FEMA), provides guidance to Federal Executive
          Branch departments and agencies for use in developing viable and
          executable COOP plans.

      Federal Preparedness Circular 65, issued July 1999 and revised in
       June 2004, outlines specific COOP requirements.
      TVA, as a Federal agency, falls under the provisions of PDD 67 and
       FPC 65.



                                                                                    4
Background (cont’d)

      TVA’s June 2002 proposed COOP plan:
        – Still remains in draft form.
        – Appears to address major COOP requirements as stated in FPC 65.
        – Provides guidance for preparation of site, activity, or business unit
          specific COOP plans.
      In 1999, FEMA reviewed TVA’s COOP program and found it to be
       acceptable.




                                                                                  5
Summary of Observations

    While TVA’s overall draft COOP plan addresses the requirements of a
    viable plan, we found that it lacks proper implementation and has not
    been assessed for effectiveness.




                                                                        6
Observation 1: Compliance with FPC
65 Requirements
      We found TVA’s overall COOP plan, as drafted, addresses the
       major requirements as stated in FPC 65, including:
        –   Establish a plan and design procedures.
        –   Identify and prioritize essential functions.
        –   Predelegate decision-making authorities.
        –   Establish orders of succession.
        –   Identify alternate operating facilities.
        –   Develop interoperable communications.
        –   Protect vital records and databases.
        –   Establish procedures to manage human capital.
        –   Conduct testing, training, and exercises.
        –   Plan for devolution of control and direction.
        –   Address reconstitution.




                                                                     7
Observation 2: Implementation

    We found that while the draft COOP plan addresses FPC 65
    requirements, the plan lacks proper implementation and support.
    ♦ The 2002 plan is still in draft form.
    ♦ TVA’s overall plan is not being assessed for viability.
    ♦ There is not a complete communication of duties, as outlined in the COOP
      plan to the responsible parties.
    ♦ A central point of contact does not exist for overall and business unit
      specific COOP planning. Consequently:
          —   There is no coordination of TVA business unit specific plans.
          —   A regular viability review is not done on business unit specific COOP plans.
    ♦ The plan is not regularly tested and training is not being provided.
    ♦ Unclear responsibility exists for interagency communications.
    ♦ Concerns exist about interoperable communications.



                                                                                             8
Recommendations

    The Executive Vice President, Administration, should:
    ♦ Assign responsibility to ensure ongoing COOP plan development
      and implementation.
    ♦ Review and approve TVA’s draft COOP plan.
    ♦ Take steps to ensure TVA’s overall plan and business unit specific
      plans are viable. Specifically:
         —   Communicate responsibilities and duties to all responsible parties and
             organizations.
         —   Coordinate business unit specific plans throughout TVA.
         —   Assess plans regularly to identify and correct deficiencies.
         —   Conduct tests, training, and exercises to ensure effective coordination,
             communication, and support.



                                                                                    9
